<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                         [H.A.S.C. No. 116-28]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

    NAVY AND MARINE CORPS TACTICAL AVIATION AND GROUND MODERNIZATION

                               __________

                              HEARING HELD
                             APRIL 4, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-902                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
KATIE HILL, California
JARED F. GOLDEN, Maine
             Elizabeth Drummond, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Nega, Daniel L., Deputy Assistant Secretary of the Navy for 
  Research, Development, and Acquisition for Air; accompanied by 
  LtGen Steven R. Rudder, USMC, Deputy Commandant for Aviation, 
  and RADM Scott D. Conn, USN, Director, Air Warfare, Office of 
  the Chief of Naval Operations (OPNAV N98)......................     4
Smith, Jimmy D., Deputy Assistant Secretary of the Navy for 
  Research, Development, and Acquisition for Expeditionary 
  Programs and Logistics Management; accompanied by LtGen David 
  H. Berger, USMC, Commanding General, Marine Corps Combat 
  Development Command, and Deputy Commandant for Combat 
  Development and Integration....................................     7
 Winter, VADM Mathias W., USN, Program Executive Officer, F-35 
  Lightning II Program...........................................     5

                                APPENDIX

Prepared Statements:

    Nega, Daniel L., joint with LtGen Steven R. Rudder and RADM 
      Scott D. Conn..............................................    38
    Norcross, Hon. Donald........................................    35
    Smith, Jimmy D., joint with LtGen David H. Berger............    91
    Winter, VADM Mathias W.......................................    68

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Banks....................................................   105
    Mr. Norcross.................................................   105
    Mr. Wittman..................................................   105

Questions Submitted by Members Post Hearing:

    Mr. Courtney.................................................   109
    
    
    NAVY AND MARINE CORPS TACTICAL AVIATION AND GROUND MODERNIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Thursday, April 4, 2019.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. Good morning. Excuse my voice, but the 
hearing will come to order.
    The Tactical Air and Land Forces Subcommittee meets today, 
our first hearing of the 116th Congress. We're going to review 
the Navy and Marine Corps tactical aviation and ground 
modernization programs for this fiscal year.
    I would like to thank the members for working with us to 
change the time. We are going to try to get the bulk of this 
hearing in before votes come somewhere around 10:00 to 10:30.
    The subcommittee has been busy over the last couple weeks 
attending briefings with military departments to learn and 
discuss mission areas and programs related to the jurisdiction 
of this subcommittee. The briefings have worked well. I think 
we have learned quite a bit. But that is the foundation of 
oversight and what we are going to do this Congress.
    We have a number of witnesses with us today, starting with 
Vice Admiral Mat Winter, Program Executive Officer for the F-35 
joint program--you are a very popular person quite a bit right 
now; Rear Admiral Scott Conn, Director of Air Warfare for the 
Chief of Naval Operations; Lieutenant General Steve Rudder, 
Deputy Commandant for Aviation for the Marine Corps; Lieutenant 
General David Berger, Commanding General of the Marine Corps 
Combat Development Command and Deputy Commandant for Combat 
Development and Integration; Daniel Nega--did I get that right?
    Mr. Nega. That is close.
    Mr. Norcross. It is close? Deputy Assistant Secretary for 
Navy for Research, Development, and Acquisition for Aviation 
Programs; and Mr. Jimmy Smith, Deputy Assistant Secretary for 
the Navy for Research, Development, and Acquisition, 
Expeditionary Programs and Logistics Management. Yeah.
    First of all, General Berger, congratulations, before we 
get into our formal remarks, for your nomination as being the 
next Commandant. Your shoulders will be heavy, but you stand in 
a long line of great leaders, and I am sure you will do us well 
and serve the country well.
    Also, I want to thank the other witnesses for your service 
for certainly everything that goes on.
    We have quite a lengthy statement that I am going to put 
into the record, but in order to save some time, I am going to 
pare it down a little bit, because we have quite a bit, and we 
want to make sure we get it finished before we move into that.
    But today we are talking about the Navy and Marine Corps 
plan to face a modern force ready for challenges posed by near-
peer adversaries taking shape. And this is a change based on 
the National Defense Strategy and the changes that we are going 
through. Yet we have been in a road that was taking us down in 
an area that was very different from the national strategy we 
have now.
    There are a number of issues we are going to be dealing 
with today, the F-35 being one of them; our rotor fleet, 
certainly a number of issues there; what and which variants are 
going to go on with the F-35; Joint Light Tactical Vehicle. The 
list goes on and on.
    But, at this point, what I want to do is turn it over to my 
ranking member for her opening remarks, Mrs. Hartzler.
    Good to see you this morning.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 35.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Good to see you, Mr. Chairman. And since 
this is our first official hearing, even though we have had 
several briefings, the first hearing of the 116th Congress, I 
want to congratulate you on being chairman of this committee. 
And I look forward to working with you. We have a strong 
tradition of working in bipartisan fashion, and we look forward 
to carrying that out and doing good things for our country. So 
congratulations.
    And thank you, gentlemen, for being here today.
    As you know, we are here to talk about our Navy 
modernization programs. It is important because years of 
continuous combat operations and deferred modernization created 
a crisis in the military readiness in both capability and 
capacity. And it will take many years of increased defense 
budgets representing real growth in order to fully address this 
crisis.
    We cannot afford to go backwards. This level of spending in 
the fiscal year 2020 budget request is the minimum needed to 
continue to repair our military and defend the country.
    The chairman covered several of the major areas. I briefly 
want to touch on a couple that I hope that you will address 
today.
    First, regarding physiological episodes in the aircraft, I 
am encouraged by the progress being made as well as the amount 
of resources requested by the Navy in fiscal year 2020, 
approximately $278 million, in the areas of upgrading the 
aircraft, changes in aircrew education and training, improved 
maintenance practices, and bringing in the medical community to 
better understand the human dynamic.
    This needs to remain a top priority. And today's hearing is 
a good opportunity for the witnesses to update us on the Navy's 
efforts to mitigate these events in F-18 and T-45 aircraft.
    Second, regarding the F-35 Joint Strike Fighter program, 
the chairman mentioned this as a focus. And I would also add 
that we need to better understand what actions are being taken 
now in this budget request to lower operation and sustainment 
costs, to include ramping up organic depot capability, 
improving the Autonomic Logistics Information System, or ALIS, 
and improving the time associated for long-lead parts.
    The Block 4 modernization program, which includes hardware 
and software, has 66 approved requirements associated with it. 
The current estimated cost to complete the initial program is 
approximately $10 billion.
    The Director of Operational Test and Evaluation has 
indicated the schedule could be viewed as high-risk due to the 
large amount of planned capabilities to be delivered in 6-month 
increments.
    Given the scope and complexity of this effort, we would 
like to hear and expect, Admiral Winter, you could provide us 
with additional details on the challenges and risks associated 
with this critical program.
    And, lastly, we would expect to get an update on current 
efforts to improve reliability and maintainability of the 
aircraft, in particular for these aircraft fielded to 
operational squadrons.
    So a few things there.
    And there is no doubt that the capabilities the F-35 brings 
to the battlefield against advanced threats by peer competitors 
is needed to meet the goals and objectives of the National 
Defense Strategy. However, we all share concerns about rising 
F-35 operations and support costs affecting long-term 
affordability, which could result in lower procurement 
quantities in the out-years.
    And representing Whiteman Air Force Base, with the B-2 
bomber, I know up close and personal what that can look like, 
having a large amount of aircraft originally scheduled and then 
ending up with--now we have 20 aircraft.
    So the F-35 Joint Program Office, along with the military 
services, appear to be very focused on reducing these costs. 
And we look forward to working with each of you and industry in 
a collaborative manner to reach your objectives.
    And, lastly, regarding aviation readiness and strike 
fighter inventories, it is my understanding that the Navy 
continues to take risk in its management of the strike fighter 
inventory and has an identified shortfall of 54 aircraft, which 
amounts to one carrier air wing. We need to better understand 
what impacts this has to overall readiness and what we can do 
to improve the situation from a modernization standpoint.
    So I thank the chairman for organizing this hearing, and I 
yield back the balance of my time.
    Mr. Norcross. Thank you, Mrs. Hartzler.
    And cost is obviously a major consideration. Obviously, you 
have to weigh the risk, and that is your job, and a very 
difficult one at that. But we are also looking at supply chain. 
And if you just open up the newspaper or look online, Turkey 
and part of that supply chain for the F-35 is going to factor 
in quite a bit. And we expect to hear about that today.
    And we have had a little change of the lineup, as I 
understand it, but we are going to start with Mr. Nega. And we 
are going to start with you, and then we will work down the 
line with Admiral Winter. And some of your testimony is going 
to be presented jointly.
    Good morning. How are you?

STATEMENT OF DANIEL L. NEGA, DEPUTY ASSISTANT SECRETARY OF THE 
   NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION FOR AIR; 
ACCOMPANIED BY LTGEN STEVEN R. RUDDER, USMC, DEPUTY COMMANDANT 
   FOR AVIATION, AND RADM SCOTT D. CONN, USN, DIRECTOR, AIR 
  WARFARE, OFFICE OF THE CHIEF OF NAVAL OPERATIONS (OPNAV N98)

    Mr. Nega. Good morning. Thank you.
    Chairman Norcross, Ranking Member Hartzler, and 
distinguished subcommittee members, thank you for the 
opportunity to appear before you today to update you on the 
Department's fiscal year 2020 naval aviation programs.
    I am joined today by Lieutenant General Steven Rudder, 
Deputy Commandant for Aviation, and Rear Admiral Scott Conn, 
Director of Air Warfare.
    We would like to thank Congress for your support for the 
timely enactment of the fiscal year 2019 budget. Receipt of the 
fiscal year 2019 authorization and appropriation without a CR 
[continuing resolution] increased our acquisition efficiency.
    As GAO [Government Accountability Office] reported to you 
in February of 2018, continuing resolutions result in 
uncertainty, complicated operations, and inefficiencies. This 
year's timely enactment enabled the Naval Air Systems Command 
to obligate 41 percent of its O&M [operation and maintenance] 
budget, three times the rate compared to fiscal year 2018 to 
date; obligate 71 percent of planned depot inductions, five 
times the rate of fiscal year 2018; and obligate 29 percent of 
fleet support team funding, twice the rate of fiscal year 2018.
    The teams were also able to clear the backlog of 
contracting actions and, most importantly, improved our ability 
to support the fleet.
    Our fiscal year 2020 budget request aligns to the 
personnel, capabilities, and processes needed to implement the 
Navy-Marine Corps contribution to the National Defense 
Strategy, where great power competition is the central 
challenge to the prosperity and security of the United States.
    A resurgent Russia and rapidly growing and more aggressive 
China continue their aims to displace American influence in 
critical regions around the globe. To regain and expand our 
competitive advantage, it is imperative that we adapt to this 
changed national security environment and do so with both a 
sense of urgency and enduring resolve.
    Great power competition against capable challengers will 
not fade over one or two budget cycles. We need your support 
over the long run as we face risks to our economic, 
technological, and national security. To do this requires the 
right balance of readiness, capability, and capacity 
underpinned by stable and predictable budgets.
    The lethality which naval aviation brings to bear in 
support of our Nation's interests is at the forefront of this 
challenge. As such, we request your continued support for both 
our ongoing readiness initiatives and the investment in the 
development of new and advanced capabilities.
    Mr. Chairman, our fiscal year 2020 investments are focused, 
balanced, and prioritized to deliver a ready, capable sea-based 
and expeditionary force. To better enable the best use of our 
requested investments, we continue to transform our business 
practices and evolve our acquisition and contracting strategies 
to maximize the output of every taxpayer dollar.
    Leveraging the vision and acquisition authorities provided 
by the Congress, we are working to become more agile to deliver 
relevant capability at speed and at scale. To improve 
readiness, we are leveraging commercial toolsets and best 
practices by making fundamental changes to the processes by 
which we plan and execute naval aviation sustainment 
activities.
    We thank you for the strong support this subcommittee has 
always provided to our sailors and Marines, and thank you for 
the opportunity to appear before you today. We look forward to 
answering your questions.
    [The joint prepared statement of Mr. Nega, General Rudder, 
and Admiral Conn can be found in the Appendix on page 38.]
    Mr. Norcross. Thank you.
    Admiral Winter.

  STATEMENT OF VADM MATHIAS W. WINTER, USN, PROGRAM EXECUTIVE 
               OFFICER, F-35 LIGHTNING II PROGRAM

    Admiral Winter. Good morning, Chairman Norcross, Ranking 
Member Hartzler, and the distinguished members of the 
subcommittee. It is a distinct honor and pleasure to appear 
before you today with my esteemed colleagues to discuss the 
Department of the Navy's tactical aircraft modernization and 
the critical role that the F-35 plays in that as well as 
enabling our Department's National Defense Strategy.
    With advanced fifth-generation capabilities being delivered 
through the implementation of agile development technologies 
and methodologies, the F-35 has turned the corner and now 
embodies both fleet modernization and acquisition innovation 
for our U.S. services, our eight international partners, and 
our four foreign military sales teammates.
    I am appreciative of your oversight, insight, support, and 
interest of the F-35 and look forward to continuing the 
discussions we began last month at our tactical aircraft 
familiarization panel.
    Since I last testified in front of this committee in March 
of 2018, the F-35 Joint Program Office has made tremendous 
progress across our three lines of effort of development, 
production, and sustainment while continuing to enable 
successful operations for our U.S. services and international 
partners.
    Specifically, we completed our system development and 
demonstration flight test program; we delivered the full Block 
3F capability with stable hardware and software; we made solid 
progress in fixing our ALIS maintenance system; and we began 
initial operational test and evaluation.
    In production, we definitized the Lot 11 production 
contract with an $89 million F-35A, $115 million B, and a $107 
million C--all over 5-10 percent decrease over the previous 
production lot.
    We increased our U.S. services' depot repair capacities in 
the United States. We activated the Italian maintenance, 
repair, overhaul, and upgrade facility. And we established a 
credible cost-per-flying-hour metric to get our hands around 
the ownership and operational cost of the F-35.
    We supported several U.S. Air Force theater support 
deployment packages. We conducted the first-ever F-35 Charlie 
air wing integrated flight operations on the USS Abraham 
Lincoln. We successfully supported the United States Marine 
Corps first deployments on the USS Wasp and Essex, to include 
the first-ever combat operations of the F-35B by the United 
States Marine Corps.
    And we supported numerous declarations of initial 
operational capabilities by our U.S. Navy, Italian Navy and Air 
Force, Royal Air Force and Navy, and, just recently, the 
Japanese Air Self-Defense Force, just to name a few 
accomplishments.
    As we look forward, as the program embraces an agile 
framework for continuous capability development and delivery, 
C2D2, to ensure we can deliver the Block 4 warfighting 
capabilities, as we ramp up the full-rate production, with 
plans to deliver 131 aircraft this year, and as we get ready to 
achieve the 80 percent mission-capable rates for our combat 
fleets, the F-35 is now on track to be affordable and meet the 
needs of today's and tomorrow's warfighter.
    Of course--you have heard me say this before--F-35 is more 
than an airplane, and as you will hear today, the modernization 
of F-35 is not limited to hardware alone. Rather, it is a 
combination of software and hardware. And the ability to 
collect, analyze, and share that data is a force multiplier 
that enhances all assets in the battlespace.
    The F-35 is truly the quarterback of the joint force. And 
with stealth technology, advanced sensors, and weapons capacity 
and range, it is the most lethal, survivable, connected, and 
interoperable fighter aircraft ever built.
    For the Department of the Navy, the convergence of stealth 
aviation and maritime capabilities found within the F-35B and C 
gives the United States Navy and Marine Corps combat attack 
flexibility and improves their ability to truly fight 
sophisticated enemy air defenses. This allows aircraft carriers 
and amphibious assault ships to maneuver and engage threats in 
highly contested environments.
    Today, with over 395 aircraft fielded, the F-35 is more 
affordable and lethal than ever before. However, I am not 
satisfied, and we can't be satisfied. We have to continue. We 
have to tackle the challenges in front of us for the repair 
times, the spare parts postures, our production line flows, and 
the labor skills to ensure that we can reduce overall ownership 
costs.
    In cooperation with industry, we have established 
initiatives and are tackling these challenges with a clear 
mandate to continue to drive affordability, quality, and 
reliability across the entire enterprise to meet that 80 
percent mission-capability rate, to drive below an $80 million 
F-35 unit price, and to truly obtain the $25,000-cost-per-
flying-hour target in 2025.
    Our President's budget fiscal year 2020 requests the 
resources necessary to achieve these goals and funds the 
continuation of our innovative agile development of critical 
Block 4 capabilities, supports the production of 78 F-35 air 
systems for our U.S. services, and ensures the required 
investments to operate and sustain over 660 F-35 air systems 
that are planned to be fielded at 22 bases and 7 sea-based 
locations by the end of fiscal year 2020.
    On behalf of the men and women of the F-35 enterprise, you 
have my continued commitment to provide the accountability and 
transparency the taxpayer demands and the affordable, game-
changing air system the warfighter needs.
    I thank you again for the opportunity to discuss the F-35 
program and its role in the Department of the Navy's 
modernization and look forward to your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Winter can be found in 
the Appendix on page 68.]
    Mr. Norcross. Thank you.
    Mr. Smith.

STATEMENT OF JIMMY D. SMITH, DEPUTY ASSISTANT SECRETARY OF THE 
      NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION FOR 
EXPEDITIONARY PROGRAMS AND LOGISTICS MANAGEMENT; ACCOMPANIED BY 
 LTGEN DAVID H. BERGER, USMC, COMMANDING GENERAL, MARINE CORPS 
 COMBAT DEVELOPMENT COMMAND, AND DEPUTY COMMANDANT FOR COMBAT 
                  DEVELOPMENT AND INTEGRATION

    Mr. Smith. Chairman Norcross, Ranking Member Hartzler, and 
distinguished subcommittee members, thank you for the 
opportunity to appear before you today to update you on the 
Department of Defense's 2020 Marine Corps expeditionary 
programs.
    I am joined here today by Lieutenant General David H. 
Berger, Commanding General, Marine Corps Combat Development 
Command, and the Deputy Commandant for Combat Development and 
Integration. We look forward to your questions as we move 
through this this morning.
    As stated by Secretary Spencer and Assistant Secretary 
Geurts during previous hearings, the Navy and Marine Corps 
continue to face a dynamic strategic environment that is 
becoming ever more sophisticated, quickly evolving and pushing 
the envelope of conventional technology.
    Additionally, in the 2018 National Defense Strategy, in 
order to retain and expand our competitive advantage, it is 
imperative that we proactively work to meet these challenges 
and do so with a sense of urgency through new operational 
concepts and modernizing, resulting in overmatch.
    The Navy and the Marine Corps must remain ready at any time 
to respond to crisis and contingencies while simultaneously 
deterring adversaries' aggressions globally each and every day.
    Competing with the peer threat is the theme of our fiscal 
year 2020 budget submission. It directly aligns to the 
Secretary of Defense's guidance to increase lethality, improve 
warfighter readiness, and achieve program balance.
    In it, we prioritize investments so that our Marine Corps 
will evolve from today's 1.0 force to a near-term 1.1 
modernized force that leverages select existing programs to 
achieve warfighting concepts, and ultimately a 2.0 future force 
with revolutionary capabilities required to create that 
competitive overmatch.
    In it, we have prioritized modernization programs that 
address command and control in a degraded environment, long-
range and precision fires, operations in the information 
environment, air defense, protected mobility, enhanced 
maneuver, and logistics.
    These modernization efforts represent roughly 30 percent of 
the total PB20 [President's budget request for fiscal year 
2020] budget submission. They are synchronized with the 
Secretary of Defense's National Strategy, the Chairman's 
Capstone Concept for Joint Operations, and the Navy's 
distributed maritime operations concepts and our expeditionary 
advanced base operations concepts.
    Through your help, we will continue the hard work to 
rebuild our readiness and modernize our Corps to maintain our 
competitive advantage against rising competitors. But we will 
need your help to do so.
    Again, thank you for the opportunity to testify before this 
committee today, and we look forward to your questions.
    [The joint prepared statement of Mr. Smith and General 
Berger can be found in the Appendix on page 91.]
    Mr. Norcross. Thank you for each of your testimonies. And 
we will get right into questions and make sure our members have 
a chance.
    Admiral Conn, General Rudder, let's get right into the F-
35, and let's talk about fourth-generation versus fifth-
generation aircraft, the best mix. Over the course of the last 
few years, there has been a tremendous amount of discussion on 
fifth-generation and how important that was moving forward. Yet 
we are--legacy issues, primarily the fourth-generation.
    Where do you see that mix today? And in light of some of 
the changes in the numbers of the F-35s being requested, what 
mix do you see that going to as a percentage in numbers?
    General Rudder. Thank you, Mr. Chairman.
    The Marine Corps is going to be a fourth-gen/fifth-
generation mix until 2030. And we decided to stay with our 
legacy Hornets and skip right into the fifth-generation.
    We are going with a B and C mix, because we still have a 
commitment to the Navy to not only deploy on carriers but also 
do expeditionary operations. So we are going to buy--as you 
saw, we rebalanced this year with more C's, just really more to 
catch up.
    We have begun training our first F-35C squadron up in 
Lemoore, and we will be the second carrier deployment with the 
United States Navy with the F-35Cs. And we will continue to 
support them with that as well. So that is the B/C mix.
    With the fourth-gen/fifth-gen, our strategy has always 
been: Go from EA-6B to AV-8B, to F-18, down to one type 
aircraft. And what that means is for our small 18 squadrons, 
expeditionary squadrons, both B and C, we will be able to mix 
pilots back and forth between the B and C, one simulator, one 
maintainer, one supply account. And that creates efficiency for 
us.
    For us to stay with a fourth-gen, we have to keep a whole 
other institution for a fourth-gen fighter. So for fifth-gen 
for us, one for the business model, one type aircraft is 
efficient and affordable.
    On the other side of things, as we----
    Mr. Norcross. Let me just drill down a little bit. So are 
you saying only fifth-generation, 100 percent, when you are 
deploying those?
    General Rudder. After 2030, we will be----
    Mr. Norcross. Oh, after 2030. How about between now and 
then?
    General Rudder. We will continue to be a fourth-gen and 
fifth-gen fleet out until 2030, with both Harriers going to 
probably 2028 and F-18s going to 2030, 2031.
    Mr. Norcross. So, as a percentage, you are what now?
    General Rudder. We are probably about 80/20 today, and we 
will be 80/20 around the 2028 timeframe, but then 100 percent 
fifth-gen by 2030 is our goal.
    Mr. Norcross. Okay. I am sorry to interrupt. You can 
finish.
    General Rudder. I think the last thing I will just say is, 
as we look at, for us, the Marine Corps being an inside force, 
and we are deployed forward, we are deployed forward, as we are 
today, even after we brought our first combat deployment back 
today, we have 10 F-35Bs on the USS Wasp, and they are steaming 
around various parts of Asia as we speak right now. I think if 
you look at the competition from 2025 into 2030, fifth-gen for 
us, as an inside force, will be--it will be required to win.
    Admiral Conn. Thank you for that question, sir.
    Much like the Marine Corps, we will not attain a 50/50 mix 
until about 2030 based on the existing ramps that we have. Any 
additional resources----
    Mr. Norcross. And the ramps were the ones as----
    Admiral Conn. As reflected in PB20.
    Mr. Norcross. Thank you.
    Admiral Conn. Any additional resources that would be 
available from an F-35 perspective would provide us some buffer 
to meet our transition schedule as we get transition squadrons 
from Super Hornets into the Joint Strike Fighter.
    Right now, first Navy squadron IOC'd [initial operating 
capability] the VFA-147 in February. Next squadron transition 
as part of TACAIR [tactical air] integration will be a Marine 
Corps. And it goes back to a Navy and continues to alternate 
through 2026 or 2027.
    In terms from a warfighting perspective--because that is 
really what this discussion should be about--the 50/50 mix 
through 2030, with a Block 3 Super Hornet and with F-35s out 
there and with E-2Ds out there and with E-18G Growlers out and 
with MQ-25 out there, I don't look at any particular aircraft 
capability; I look at the weapons system that flies off that 
carrier as a carrier air wing--because that is how we are going 
to fight--and what is the most lethality can it provide that is 
affordable and executable in the near term, and that is what 
our plan is.
    Anything beyond the Block 3 Super Hornet is a next-
generation air dominance discussion in terms of what is going 
to replace that aircraft. That AOA [analysis of alternatives] 
will be complete this spring. The final report will come out 
this summer. And that will inform future choices reflected in 
future budget cycles, in terms of what do we need to do to get 
after the lethality that we need at a cost that we can afford.
    Mr. Norcross. Thank you. So, Admiral Winter, let's start 
talking about the supply chain for the F-35. The numbers that 
were originally planned were tremendously behind. We are not 
even close to that. But the ones that were part of last year's 
budget going into this year's budget have dropped a little bit.
    What does that do to your supply chain? Is that giving you 
the opportunity to get caught up with some of the problem areas 
of supply?
    Admiral Winter. Thank you for that question, Mr. Chairman.
    The slight perturbations of U.S. service quantities across 
the recent years are really within what I call the margin of 
error for our growth phase. We are going from 66 aircraft that 
we delivered in 2017. We delivered 91 last year. We plan to 
deliver 131 this year. And we will be at 167 by 2020.
    The slight inputs and decreases and increases are not 
having a drastic input on the purchase order demand on our 
supply chain because we are also putting a big demand signal on 
them for spare parts for sustainment.
    And so, as we look at the complete supply chain demand 
signal, the production and sustainment balance, we would have 
to see reductions of quantity measured in 40 or 50 in 1 year, 
or increase, to really put a reduction of demand on our supply 
chain.
    Mr. Norcross. So does that end up in the delivery schedule? 
There is a difference between the two. So the actual delivery, 
is that being impacted at all?
    And the next thing we are going to want you to comment on, 
in the event that Turkey is no longer part of the supply team, 
how are you going to handle that?
    Admiral Winter. Yes, sir. So the first question and the 
impact on the supply chain, what we are seeing right now is, 
with the current demand on the 3,000 suppliers that provide 
parts to the production line and to our sustainment enterprise 
for spare parts, they are struggling with the demand signal on 
them, because they are producing parts for the production line, 
they are producing parts for spare parts for sustainment, and 
we still have them repairing their part for the ones that are 
breaking now that we have 395 aircraft deployed.
    So the strategy here is to take that demand signal of 
repairing the parts off of our industry and put it into our 
depots, our organic depots around the country, our fleet 
readiness centers and air logistics centers, so that our 
industry supply chain can truly focus on what they do best, 
which is generating new parts.
    What we are seeing is that the ramp-up and the demand 
signal lagged from both Pratt & Whitney and Lockheed Martin to 
get the supply chain up the ramp from 66 to 91 to 131 to 167. 
And so we are starting to turn that corner, but we are still 
lagging.
    Right now, my production line at Lockheed Martin Fort Worth 
has on the average about 200 parts that are late every month. 
What that does is that pushes work down the production line, 
and we call it traveled work. Instead of stopping and waiting 
for the part to show up, we move it to the next station, and 
then they do that work at the next station. So there is a lot 
of extra management and extra touch and extra work that has to 
occur that is driving that price up and not necessarily seen by 
flow of the production line.
    The other part--right now, Turkey and my other seven 
partners are all part of the supply chain, and they all have 
roughly a percentage of supply chain demand commensurate with 
the number of aircraft that they are procuring. Turkey is about 
6 percent, 6 to 7 percent, of our F-35 supply chain.
    Right now, there has been no disruption to the supply chain 
from any of my partners, to include the United States. And the 
flow we call the work in progress, WIP, that is flowing from 
Turkey, from my other partners, continues to flow to not only 
Fort Worth but to Cameri in Italy and Nagoya in Japan. Those 
are our three production lines.
    What we need to make sure is that any disruption to the 
supply chain, no matter where it comes from, we are putting in 
place the appropriate mitigation steps to mitigate potential 
disruption of the supply chain.
    I will stop there, sir, to see if I answered your question.
    Mr. Norcross. You have. And I have a number of other 
questions, but I want to give the ranking member an 
opportunity.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you. Thank you very much.
    So you are putting in place the mitigation efforts, but at 
this point, if Turkey were to stop providing that 6 to 7 
percent supply chain, where would you be at?
    Admiral Winter. So, ma'am, from any supply chain provider, 
we are between--we can do it in terms of aircraft or in terms 
of time. The evaluation of Turkey stopping would be between a 
50- and 75-airplane impact over a 2-year period. From a 
timeline, we would see within 45 to 90 days an impact of the 
slowing down or stopping of those parts to the three production 
lines.
    Mrs. Hartzler. Okay. Thank you.
    I want to shift to physiological episodes [PEs], the F/A-
18.
    So, Admiral Winter, I will start with you. Should we be 
worried that, over time, as we add more and more capability to 
the F-35, that at some point the air handling system of that 
plane won't be able to keep up?
    And what have we learned from the current F-18 situation to 
perhaps get out ahead of this so similar problems in the future 
don't happen with the Navy and the Marine Corps F-35s?
    Admiral Winter. Yes, ma'am. Thank you for that question.
    The F-35 enterprise has been part of the entire Department 
of Navy and the Air Force Physiological Episode Team, the PET 
team, and has been there since day one, understanding the 
causal factors, the barriers, and the solutions not only from 
an operational perspective but, more importantly, technical.
    The F-35 life support system already incorporates the 
lessons learned from F-22, F-18, and other--F-15 and F-16 from 
an initial design element in the middle of 2004 to 2005. F-35 
has experienced, on average, the same or slightly less rate of 
physiological events that other aircraft have.
    Our solution space there is working with the aeromedical 
community, just like our Department of the Navy folks, to do 
understanding the physiological events. But we have also 
incorporated three dedicated technical solutions to get ahead 
of any potential ramp of physiological episodes.
    In that, our oxygen-generating system--we call it the 
onboard oxygen-generating system--it is pronounced ``OBOGS''--
we found that it was providing the appropriate concentration of 
oxygen to our pilots, but there was a variation in it that, if 
we reduced that variation, would eliminate a potential causal 
factor. So we are incorporating that new logic to our OBOGS.
    There is a seat portion assembly--that is in the seat of 
the F-35--that senses cockpit pressure and other inputs and 
will immediately initiate the emergency oxygen system to the 
pilot if it senses that the decompression or the atmosphere 
within the cockpit requires that. It was too sensitive, so we 
have gone back and looked at that based upon pilot input, and 
we are doing a seat portion assembly upgrade.
    And then, finally, we have incorporated a carbon monoxide--
so a single CO [carbon monoxide]--catalytic filter that does 
higher-fidelity filtration of carbon monoxide, which the 
aeromedical community has determined is a first-order effect to 
physiological events.
    So those are all in work and will be in as the production 
baseline for Lot 12 and are being retrofitted into our previous 
jets.
    Thank you, ma'am.
    Mrs. Hartzler. Well, thank you. It sounds like you are 
really taking the lessons learned and incorporating those.
    I was kind of concerned, though, when you said that they 
have the same rate of physiological episodes as the other 
aircraft, though, even with all of these changes. Are they 
already on there, or are you just incorporating them for the 
future models?
    Admiral Winter. So the OBOGS and the SPA, the seat portion 
assembly, is early in the next quarter. And the COCAT [carbon 
monoxide catalyst], the carbon monoxide, is early next year.
    To your point about previous aircraft, what we are seeing 
from a physiological pilot population, more experienced pilots 
seem to have less incidents of physiological events. There is 
not a direct causal factor drawn by that. And so we are seeing 
our physiological events in our training aircraft over our 
operational aircraft, and they are the same design. 
Physiological events first-order effect is actual human being 
makeup as we go forward.
    Thank you, ma'am.
    Mrs. Hartzler. I know it is a very complex issue and there 
is not one particular solution. And I appreciate your focus on 
trying to get a handle on this.
    And let me turn to Admiral Conn.
    I know you have been really focused on this as well. So can 
you kind of give some update on the numbers of reported PE 
incidents? Are they trending up or down? And can you describe 
for us how the Navy gets feedback from the PE event 
investigations back to the crew members and the pilots who 
experience them?
    Admiral Conn. Yes, ma'am. Thank you for the question.
    First, I would say we have taken over 20,000 samples of air 
that is coming out of the OBOGS system, whether a T-45 or F-18, 
put it through the spectral analysis, and have determined that 
there is no contamination getting to that aviator. So we have 
ruled that out. All right? That is one.
    Two, for our T-45, you asked for numbers, ma'am. In 2016, 
we had 35 incidents; 2017, 31 incidents. Last year, we had six. 
This year, thus far, this fiscal year, we have had one. So that 
is progress.
    We have done it through straight-lining the pipes, if you 
will, that come off the engine that get to the OBOGS 
concentrator to provide constant flow, better flow to that 
piece of gear. And we have also increased flight idle RPM 
[revolutions per minute] by 1\1/2\ percent, again, to get 
better flow to that cockpit. And that is what is driving those 
numbers down.
    For Hornets, it is different. You have A through D's and 
Super Hornets. And I have both numbers. I will talk to Super 
Hornet numbers.
    The primary driver to PE events in the Super Hornet is 
cabin pressurization and fluctuations that we are seeing. The 
incidents we have had for the Super Hornet--that is E, F, and 
G, so we include the Growlers in this conversation--we had 87 
incidents in 2016, 73 incidents in 2017, 65 incidents in 2018. 
Thus far this fiscal year, we have had 41. Any progress we have 
made has flattened out.
    The good news is we know what we need to do in terms of 
using data analytics, working with Admiral Luchtman, who is 
leading the PEAT [Physiological Episodes Action Team] team at 
NAVAIR [Naval Air Systems Command]. Things like the primary 
bleed air regulator valve, secondary bleed air regulator 
valve--we can connect that those systems are driving PE events. 
Some of those are under contract and will start delivering this 
year. Others of those gear will start delivering in 2020, and 
we are going to install that on the airplane.
    CPOMS [Cockpit Pressure and Oxygen Monitoring System], if 
you have heard about that, where it is the digital cabin 
altimeter, but it also measures the oxygen to be able to warn 
the aircrew, that is being installed this year and will 
continue being installed out through 2020 until we outfit the 
fleet.
    So, from a PE side, we have ruled out contamination. We 
have had the engineering to address the T-45. It is in place, 
and we have driven down numbers. From a Super Hornet side, we 
have kind of flatlined on the cabin pressurization. But we know 
what we need to do, and we are getting at it, with respect to 
getting the items under contract, getting them in the aircraft. 
And until we do that--and we need the resources that we are 
requesting to do so--we are not going to make any significant 
change to these cabin pressurizations.
    In terms of follow-on care, we have aviators that have 
numerous PEs or a couple PEs. We make sure that there is 
follow-on care and have identified the resources with our 
medical community, whether it be in Portsmouth or out on the 
west coast, to make sure that they have access to the 
specialists they need for any chronic symptoms that they are 
seeing.
    Mrs. Hartzler. As far as the investigations, though, and 
getting that feedback back to the crew members and the pilots, 
how is that done?
    Admiral Conn. Admiral Luchtman is on the road as I speak 
talking to aviators. He was down talking to T-45 folks earlier 
in the week. He engages with Oceana for our strike fighters. He 
goes out to Lemoore and provides feedback--honest, transparent, 
``this is what we are seeing.'' And I can tell you that for the 
young aviators down in CNATRA [Chief of Naval Air Training], 
they have complete confidence in the T-45 system now.
    Mrs. Hartzler. That is great. Well, appreciate all of your 
ongoing efforts. I look forward to hearing the results of these 
changes you make and how it impacts this, hopefully, in the 
future.
    Thank you. I yield back.
    Mr. Norcross. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Welcome to all the witnesses. And congratulations again, 
General Berger, on your nomination.
    General Berger, the full-rate production decision for the 
Joint Light Tactical Vehicle, JLTV, has been delayed, 
apparently due to issues with the visibility and limitations on 
how weapons can be fired from the vehicle.
    What is your assessment of the JLTV program status, current 
configuration, changes needed, and plans to resolve issues 
prior to a full-rate production decision?
    General Berger. Thank you, sir. The vehicle, as it is right 
now, meets the Marine Corps requirements. The issues you spoke 
of and the reasons for the Army delaying a full-rate production 
were not Marine Corps issues; they were unique to the Army.
    As a joint program, though, obviously, as they work their 
way through solutions to them, we will be right next to the 
Army to see the changes that they make in the glass of the 
vehicle. In the other two items, we will see how that pans out 
in relation to cost.
    But we have already contracted for, purchased the low-rate 
production, about 1,600 of them, this year. And then we will 
wait for the full-rate production and go from there.
    Mr. Carbajal. Would this have an impact on the economy-of-
scale reduced price that I assume you were projecting if the 
Army is going to buy a lot less units of this vehicle?
    General Berger. If they reduce their overall buy, then 
certainly I think it would be like any other major system; 
there would be an impact on cost.
    So far, we have not seen that. That doesn't mean it won't 
happen. But this initial decision was just to postpone the 
full-rate production.
    Mr. Carbajal. Thank you, General.
    Mr. Chair, I yield back.
    Mr. Norcross. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I appreciate you all being here today. And congratulations 
to the future Commandant.
    My first question is on electronic warfare [EW]. What is 
the current status of the Next Generation Jammer? And how does 
the fiscal year 2020 budget support this effort and electronic 
warfare and countermeasures initiatives in general?
    Thank you.
    Admiral Conn. For the Next Generation Jammer, the first 
aspect or capability we look for is what we call mid-band. That 
is fully funded. We had some challenges with respect to 
structure design that set us back a little bit, but we 
continued with the internals and the actual EW capability, and 
we are back on path to deliver that pod.
    The next aspect we are looking at is what is called low-
band Next Generation Jammer. When you look at where potential 
threats are going, that is going to be a very important piece 
of equipment that we need to deny, delay, deceive--I would 
probably keep it as simple as that--in that high-end threat 
environment.
    And then there are also other aspects of EW on each 
particular airplane that is under my portfolio. But I am not 
sure that was exactly your question. But the Next Generation 
Jammer--when I say E-18G, I should say E-18G with Next 
Generation Jammer. It is a system of systems between the two.
    Did I answer your question, sir?
    Mr. Bacon. Yes, sir.
    Concerning rotary lift, my understanding is there are some 
pretty extensive infrared countermeasures. We don't have much 
in the radar countermeasures. Do we need to be doing more 
there? Or what is your feedback in that area?
    General Rudder. I guess there is always a threat that we 
need to keep pace with. And when it comes to aircraft 
survivability equipment, that is no different, whether it is a 
radar or weapons system. That is what we endeavor to do with 
all our assets.
    With the large aircraft infrared countermeasure right now 
that we are putting on our V-22 and on our 53 Echo, our KC-
130s, and certainly some of our UC-35s and UC-12s, that will--
for up to fourth-generation threat for those, that does a 
pretty good job.
    For the radar warning indications, we are always trying to 
keep up with the next generation of radar systems. And we are 
doing it with our F-18s as well, because every time we turn 
around a new system has a new band that we need to deal with. 
But for our helicopters, certainly the new aircraft 
survivability equipment, the APRs [radar warning receivers] and 
certainly the ALQs [airborne countermeasures], are being 
designed to counter the new threat as it progresses.
    Mr. Bacon. I am not sure who to ask this question to, but 
do you sense the OSD [Office of the Secretary of Defense] and 
the Joint Staff are providing adequate EW direction so we get a 
unified effort? Or is this sort of service-centric, from your 
perspective?
    Mr. Nega. Sir, I will take a stab at that.
    I have a monthly meeting with Dr. Bill Conley, who is the 
EW expert in OSD, and I believe that we are in lockstep not 
just from a policy perspective but an implementation 
perspective.
    And let me add one more thing on the Next Gen Jammer low-
band. It is currently in a demonstration phase, and things are 
going well. The expectation is that system will leverage the 
section 804 acquisition agility, I will call it, to field that 
system as quickly as possible.
    Mr. Bacon. Okay.
    General Rudder, I understand you are procuring or 
requesting two MQ-9s for the Marines. Could you explain a 
little bit what is the intention there, and do you get much 
capacity with just two MQ-9s? I mean, I was part of the Air 
Force and realize the huge network you have to have to provide 
a full-time cap. So I am just curious, what is your intention 
there with those two RPAs [remotely piloted aircraft]?
    General Rudder. Yeah. Thank you, Congressman. The current 
MQ-9s right now are in a contractor-owned, contractor-operated 
endeavor that we are doing, and, quite honestly, we are in 
lockstep with the Air Force in how we manage that, because they 
are helping us with the network and how all this comes into 
being, especially for the area that it is operating out of.
    So one is, first and foremost, as we look at the future of 
Afghanistan and what Task Force Southwest is doing, is this is 
fulfilling an UUNS [urgent universal need statement] for them. 
The purchase that we have in this year's budget allows us to 
buy these systems that were already operating in a certain 
location, which is in a really good location, support Task 
force Southwest, and do other things like networking and 
weapons that we can't do under the current contracting 
association. So, first and foremost, to support the warfighter 
forward.
    Mr. Bacon. Thank you for your perspective.
    Mr. Chairman, I yield back.
    Mr. Norcross. Thank you.
    Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    General Berger, congratulations again on the nomination.
    I think I was telling you the other day, I was having a 
conversation with a gentleman who was explaining to me his 
opinion that the high ground didn't matter on the battlefield 
anymore; we are in an age with UAVs [unmanned aerial vehicles] 
and other new technologies from the sky, which the grunt in me 
had a hard time contemplating.
    And I think you and I agree that is probably not 100 
percent the case, but I thought it raised a good question and 
wanted to give you the opportunity to maybe talk a little bit 
about the work that you have in this budget and that the Marine 
Corps is working on in regards to air defense systems to 
protect our ground units, where you can give them a little bit 
of an ability to reach out and fight back against something 
like a UAV, whether that just be eyes in the sky or even 
something that might be able to reach out, you know, and bite 
you.
    But certainly something I never had to experience, so I am 
interested in knowing, what are the Marines working on to make 
sure that our grunt units are able to compete with UAVs from 
above or fighting with a peer competitor with fixed- or rotary-
wing, you know, capabilities?
    General Berger. Thank you, Congressman. I will start off 
and ask my teammate to cover ground that I perhaps miss.
    A couple things. First, the radar system called G/ATOR 
[Ground/Air Task Oriented Radar] that we use, are fielding--or 
started fielding last year and will continue fielding--is a 
huge advance for us in identifying and tracking targets as they 
come in, because it is expeditionary and it is electronic, it 
is phased array. So the G/ATOR is part of the answer to your 
question. It is not just the shooting part; it is the first 
end.
    MADIS [Marine Air Defense Integrated System], acronym for 
the system that we have fielded in very limited quantities here 
in CONUS [contiguous United States] and probably will do 
overseas as well, is an integrated modular package on a Humvee 
or a JLTV vehicle that has everything onboard one or two 
vehicles, including the power system. And that one, initially, 
kinetic, could be a directed energy solution for a weapons 
system for it as well. And so far, it is going pretty good in 
testing. We will see where that goes.
    And then the longer range would be a medium-range 
interceptor. Although not a core mission for us, we need to be 
prepared for that. And that development is ongoing as well.
    And I will ask General Rudder to see if he can fill in 
holes for me.
    General Rudder. I think your initial comment about the high 
ground is--as we put together the Marine Air-Ground Task Force 
[MAGTF] and the aviation and the ground elements that go into 
that, it is all dedicated on putting human beings, infantry on 
the ground to seize objectives, forward objectives, as are 
stated in our advanced basing objectives and operations.
    So when we talk about this, we talk about the high-end 
fight. We get enamored by a lot of long-range systems, and we 
have to have those too, like the F-35. As we back down into 
that, right now, swarming quadcopters from enemy cause us great 
concern. So we need to be able to do that.
    So in concert with what General Berger just talked about, 
whether it is another UAS [unmanned aircraft system] that will 
take down that UAS or whether it is directed energy, which has 
a lot of promise for this particular endeavor, having this full 
spectrum of capability to protect as well as stay on the 
offensive is all these things we are trying to piece together 
for the MAGTF.
    Thank you, Congressman.
    Mr. Golden. Thank you very much. And do you envision 
anything that might be man-portable for ground units?
    General Berger. Are you talking beyond the Stinger sort of 
shoulder-launched?
    Mr. Golden. Anything coming down the road in terms of 
ability to engage with UAVs or anything like that.
    General Berger. I will ask General Rudder. Not that I know 
of, myself. I will ask him if he knows of anything.
    General Rudder. We have a lot of systems that will only 
offer that miniaturization. And technology right now is 
providing a lot of capabilities for not only precision-guided 
munitions that can be launched and hover and loiter at great 
distances, but, again, smaller UASes that can counter other 
UASes that we can certainly launch from a man-portable system.
    General Berger. If I could just add one more. We have done 
some experimentation with man-portable systems for low, slow, 
kind of smaller UAVs, and they have not panned out so far.
    Mr. Golden. I appreciate that. I am interested in that.
    And the last thing I would say is, you know, I continue to 
be interested in your new amphibious combat vehicle and look 
forward to hopefully having the opportunity to get out there in 
the field and see one of those in action. And, you know, I 
think it is an important new, you know, investment that you are 
making and critical to getting ready for, you know, this whole 
National Defense Strategy in regards to China and the Pacific.
    Thank you.
    Mr. Norcross. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    General Rudder, we have heard a lot about the sustainment 
cost for F-35s. And there seems to be a lot of misunderstanding 
or misinformation about what the actual costs are versus the 
CAPE [Office of Cost Assessment and Program Evaluation] 
estimates. I understand the prime contractor has committed to a 
$25,000 cost per flight hour by 2025 for the F-35A variant.
    I also understand the Marine Corps has done its own 
analysis of what the actual operations and sustainment costs 
are currently for the F-35B. Can you share those numbers with 
us?
    General Rudder. We have worked with the JPO [Joint Program 
Office], with CAPE, with Navy, with all the different cost 
estimators that determine what the O&S [operation and 
sustainment] costs are going to be, and certainly costs per 
flight hour, and I think we have settled on how we quantify the 
costing. There are different categories, 1 through 5--manpower, 
fuel, sustainment, and the like. And we have settled on this.
    And I will say, for 2017--the actual cost for 2017, they 
were $60,000 per hour, and in 2018, they were $51,300 per hour.
    So some of that was due to we just didn't fly the numbers 
of hours that we had bought into, which creates--believe it or 
not, the less you fly, the higher your cost per hour is. If we 
look forward to fiscal year 2019, we are striving to be at 
$39,000 per hour.
    The vectors, if all the things that Admiral Winter has 
talked about as far as getting maintenance closer to the flight 
line, getting some stability in sustainment, we believe that, 
you know, that $25,000 per hour is going to be achievable.
    Mr. Banks. Could you compare that for a moment with other 
fifth-generation fighter aircraft?
    General Rudder. I cannot compare it to other fifth-
generation fighter aircraft, only the fourth generation that we 
have--other fifth gen, would be I guess, would be F-22, and I 
don't have the numbers here, but certainly I can take that back 
to my----
    Mr. Banks. Take that for the record?
    General Rudder. Take that for the record.
    [The information referred to can be found in the Appendix 
on page 105.]
    Mr. Banks. Okay. Moving on, I recently introduced the five 
oceans Navy strategy, which proposes a force structure above 
the Navy's current 355-ship plan. The Navy we need blends a 
large force structure in advanced capabilities. In my view 
deterrence is a critical component to our fight with near-peer 
adversaries in preventing large-scale conflicts.
    So Admiral Conn, what is the role of unmanned aircrafts 
such as UAVs in the future fight with near-peer competitors?
    Admiral Conn. Well, first we have Triton that is going to 
be going forward this year, probably later this summer. And 
then we are going to continue to build capability and capacity 
with that system in accordance and comply with the NDAA 
[National Defense Authorization Act] of 2011 that I need the 
capability and capacity that I have greater than I have today 
before I can sundown the EP-3 in 2021, and we are on track to 
do that.
    MQ-25 is going to be the next big system that we put, and 
we are going fly it off our aircraft carriers. It is primarily 
a tanker. It has some secondary capabilities of providing ISR 
[intelligence, surveillance, and reconnaissance] but the 
primary mission is a tanker. As I look to the future, I think 
to the past. I think the PBYs [World War II Patrol Bombers], 
the eyes and ears of the fleet being out there extended range, 
relaying information back to decision makers. I see that in the 
future of large UAVs flying off our carrier.
    Mr. Banks. That is helpful feedback. General Berger, in 
your testimony you spoke about the investments needed in 
manned/unmanned teaming in autonomous systems to facilitate sea 
control and denial. What capabilities and technologies do we 
need additional investment in to be competitive with our 
adversaries?
    General Berger. Just to make sure I understand--beyond 
autonomous, beyond?
    Mr. Banks. Yes, sir.
    General Berger. Okay. First off, thanks for the question. I 
would say our collective approach is not to match but to gain 
overmatch because the match is kind of a fair fight that 
General Dunford says we are never going to go into and none of 
us do either. The manned to unmanned teaming you spoke of is 
hard work. We have found over the past year and a half, 2 
years, very hard work to do. But actually the teaming of that, 
younger Marines and soldiers take to it pretty easily.
    I think the longer term is going to be the depth part 
either offensively or defensively in depth. In other words, 
conceivably unmanned systems way far forward. Another unmanned 
system that can act as sort of a mothership on shore or on 
land, and then the manned portion and unmanned--unmanned 
portion further back. In other words, a layering all the way 
out in great depth.
    I think the Navy is also making huge strides in subsurface, 
which we absolutely need to have in sea control and sea denial 
sort of roles. And lastly I will just say that the challenge 
for us is in the command and control, the fusion of all of that 
sensing when fighting as an--operating as a naval expeditionary 
force, how to pull all that together, how to fuse it, and how 
to distribute it in a manner that the appropriate commanders 
can act on it.
    Mr. Banks. Thank you. My time has expired.
    Mr. Norcross. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you to all the 
witnesses for being here this morning. General Rudder, the 
funding for continued development of the K-MAX unmanned 
helicopter was not included in the initial budget proposal but 
was included in the unfunded priorities list. It is about $18 
million. Again, the K-MAX program in Afghanistan in 2011 flew 
thousands of hours, and I think they racked up a pretty good 
record of 4\1/2\ million pounds of cargo for Marines and Task 
Force Southwest, which basically was the equivalent of about 
900 convoys through pretty dangerous territory. So if Congress 
does agree to that unfunded request, can you discuss how the 
Marines would use that funding to continue research on heavy-
lift unmanned helicopter cargo lift?
    General Rudder. Thank you, Congressman. We bought those K-
MAXs in a government-owned contractor-operated agreement in 
Afghanistan. When we came back we endeavored to make them a 
program of record, and are still working down that road, but we 
were not able to secure the funding to get that back flying in 
the fleet for test and operational usage for experimentation.
    We have since, now, with the thanks really of this 
committee to secure funding for that so now we have a 
cooperative research and development contract that we are 
working with K-MAX and they will take in--whether it is 
happening right now or in the next few weeks they are going to 
be trucked back to Connecticut and we are going to give them to 
the vendor to let them work through a couple different things. 
One is autonomous logistics delivery. Like we learned in 
Afghanistan, there is certain things that you want on call, but 
there is other things that you just need to have going 
autonomously.
    And I think the K-MAX with its lift capability and the way 
we conceive distributed operations in the future, if we get 
those airplanes we are going to configure them as we are 
configuring this test vehicle back in Connecticut with autonomy 
which will allow them to have terrain-following type of radar, 
and it will be able to push a button, it will take the cargo to 
a particular point that you have programmed in, it will drop 
that cargo, and do it all day long. And we have seen 
efficiencies with this over time.
    So with the money that we have, we do have funded right now 
to do those two aircraft that we own back in Connecticut. We 
will bring those back hopefully by the end of next summer to 
begin experimenting in Yuma and Twentynine Palms. But the extra 
money that is in there now is to create a few more air vehicles 
so we can kind of expand this usage. Because we see this as the 
future of distributed operations, how we logistically supply 
ourselves.
    Mr. Courtney. Fairly modest request in Washington math, so 
again, I appreciate that answer and hopefully that will help us 
as we get closer to the mark. According to the Navy's long-term 
tactical aviation inventory plans, the Navy continues to 
maintain a mix of fourth-generation FA-18s and fifth-generation 
F-35s through the 2030s.
    Admiral Conn, can you talk about how you plan to integrate 
the F-35s with the legacy aircraft and carrier air wing during 
that transition period, and in particular whether there is 
particular missions that you would select or prioritize for one 
type of aircraft over the other?
    Admiral Conn. We have been doing this integration effort 
for a long time. Working with the Air Force, working with the 
Marines, working out in Fallon, Nevada, with some of our young 
disciplined trained aviators that fly out of TOPGUN [U.S. Navy 
Strike Fighter Tactics Instructor Program] or fly out of Strike 
[Navy Strike Warfare Center], those type of people are the 
people that need to do this work and they are doing it in terms 
of how we are going to integrate this fifth-generation 
capability into the air wing.
    And in terms of some of the missions, I see, as Admiral 
Winter has suggested, you know, the F-35 operating forward 
acting as a quarterback. Sensing, collecting, reeling, and in 
some cases killing, various targets that are out there. But I 
also have trucks known as a Super Hornet that can carry a lot 
of ordinates that the F-35 is out there sensing, relaying the 
information to a long-range weapon and getting it on the 
target. Also working with the E-2D; between the E-2D, the F-
35C, the F-18 Super Hornets, the E-18G Growlers, when you put a 
fifth-generation asset in there we just get better across all 
mission areas.
    If I had to go over the beach in some areas it makes more 
sense to put an F-35 over the beach than a Super Hornet. It 
doesn't mean I can't put a Super Hornet over the beach, but the 
risk is a little bit different.
    Mr. Courtney. All right. Thank you. I may follow up with a 
written question after the hearing about just integrating also 
how you are going to maintain two different types of aircrafts, 
you know, in the close space of an aircraft carrier, but, 
again, I thank you for your answer this morning, and I yield 
back.
    Admiral Conn. Yes, sir.
    Mr. Norcross. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today and for your testimony. I wanted 
to begin with Lieutenant General Rudder and talk specifically 
about the CH-53K King Stallion heavy-lift helicopter. Last year 
we heard about how great this bird was going to be, the 
strongest, the smartest, the best heavy-lift helicopter that 
money can buy, and now we are hearing reports that the initial 
operational capability milestones that are set for this 
December are not going to be met, that that is going to have to 
be pushed back, that there are a whole list of elements there 
that have to be looked at so the initial operation test and 
evaluation may not occur until 2021. There is a whole list of 
design deficiencies, and I want to point some of those out.
    The issues reported are airspeed indication anomalies; tail 
boom and tail rotor structural problems; low reliability for 
main rotor gear box; fuel system anomalies; overheating of main 
rotor dampers; and hot gas impingement on aircraft structures. 
A list of ones that are, you know, if you are a pilot such as 
the great pilots you have in the Marine Corps and with your 
experience those things are concerning about where we are with 
that.
    So my questions really are threefold. What is being done to 
correct those issues? What is in the pipeline? Is this year's 
budget request enough to make sure that we correct these design 
deficiencies, and as we are looking at the ability to deploy 
this helicopter are we on track to deploy it in 2023 or is it 
going to be 2024, because I think making sure we have that 
helicopter available to replace the Echoes [CH-53Es] is a key 
element. So I wanted to get your perspective.
    General Rudder. Thank you, Congressman, and you are exactly 
right. It is important. Heavy lift is still a--really a DOD 
requirement and a Marine Corps requirement still especially for 
distributed operations. This airplane, last year we moved it 
from testing in West Palm Beach, and we moved it to Pax River 
where we put it through its paces. We brought it out to 
Colorado, did high altitude testing, we banged it around in the 
dirt out there, and we found some things.
    And we found some things because good Marine test pilots 
and Navy--and the naval enterprise found things that needed to 
be fixed. So the delays that you see right now is to make sure 
we get it right. And I think I may even defer to Mr. Nega and 
talk about how we are negotiating the next few contracts is 
that we are going to build concurrency into our next contracts, 
so when the Marines get a helicopter it's going to have those 
things.
    All the things you just talked about are going to be fixed 
before we give it to the fleet. If I back out from that, this 
aircraft did some unbelievable things this past year. It lifted 
36,000 pounds, it still can go, you know, 100 miles, 27,000 
pounds, three times what the 53 Echo can do.
    Now the question is to fix these technical deficiencies we 
have, and they are all fixable, and at this part of the program 
and give the Marines, the maintainers especially and our great 
pilots, the aircraft they deserve.,
    But I think we are on the right track. You will see where 
we put in this year's budget we put what we need to fix as well 
as, you know, manage our procurement a bit to make sure that we 
do not get ahead of ourselves.
    But if you let us continue on with the money we have asked 
for this year and the money that we asked for for next year we 
are going to fix this and we are going to deploy it in 2024.
    Mr. Wittman. Thank you. Lieutenant General Berger, first of 
all, congratulations on your nomination. We are excited about 
that. And I know that you will do a fantastic job. And we 
appreciate the great work that you have done throughout your 
Marine Corps career.
    I wanted to talk about munitions. And as you know having 
munitions in the right places and the right types of munitions 
are a key logistical element there on the battlefield, and as I 
have had the opportunity to travel and talk to Marines forward 
deployed in those areas many of the issues come up about having 
the right quantities of munitions in the right places and the 
right types of munitions. Can you give me an overview about 
where we are with the Marine Corps with having the right 
complement of munitions, having them in the right places, in 
the right quantities?
    General Berger. I will, Congressman. Thanks for the 
question. And just to make sure, is your focus on small arms?
    Mr. Wittman. Yes.
    General Berger. Because--very good. Over the past perhaps 
longer than 2 years, probably closer to three or four, a whole 
lot of work done on the munitions, the 556 round that we have, 
to make it more lethal, and we have gone through several 
iterations of that with the Army.
    Parallel to that was a different type of cartridge that 
lessened the weight to make it carrying the same amount of 
rounds would be cutting the weight by maybe two-thirds. The 
first one on the lethality I think the work so far between the 
Army and the Marine Corps is very solid, and the evolution of 
rounds that we used in Afghanistan kind of reflected that. 
There is another look, again, at the caliber to see if 556 is 
what we want as a service and as a Department of Defense, and I 
think all the right people are working on the answer to that 
question.
    Above that all good things like rockets where we fielded 
MAAWS [Multi-purpose Anti-armor Anti-personnel Weapon System] 
in place of the small, the medium machine gun 50 cal kind of 
762 and up to 50 cal again looking at a different type of 
cartridge that will lessen the weight and make it more 
expeditionary.
    I think--I don't know where the decision point is, so I 
will ask on the caliber issue, but I do know it is one that 
both the Marine Corps and the Army are side by side on, and I 
don't know any as far as the timeline, sir.
    Mr. Smith. We will take the caliber and the timing for the 
record, the question for the record. We will get back to you.
    [The information referred to can be found in the Appendix 
on page 105.]
    Mr. Wittman. Very good. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Norcross. We are to go through a second round of 
conversations, obviously fewer of us, and we are expecting 
votes quite frankly at any moment.
    General Berger, I want to give you an opportunity to give a 
more visionary or strategic view. For the Marine Corps posture 
review identifies the Commandant's highest priority command and 
control [C2] in a degraded environment. How will the Marine 
Corps fiscal year 2020 request put you on a path to delivering 
this resilient, affordable C2 network?
    General Berger. Sir, thank you. The way that you described 
it is exactly why it is number one for General Neller for the 
Marine Corps. We have a lot of sensing systems that we are 
fielding now and the next couple years. Our challenge as a 
naval force is how to integrate that and do it in a contested 
electromagnetic spectrum sort of environment, and that is not 
easy work. Because the mixture in just aircraft of fourth- and 
fifth-gen aircraft and pushing the processing and dissemination 
of that information, really difficult.
    Hard enough to do if it wasn't in a contested environment, 
but we absolutely expect the threat to go after our C2 systems 
first, before logistics, before everything else, because they 
believe that is our Achilles heel.
    So for us, Navy and Marine Corps, it is number one for the 
Marine Corps because if we can't have the network that we need, 
and we absolutely will--then you break the force down in 
individual small elements. It is going to remain number one the 
rest of this year, and a fair portion of the requests this year 
is aligned towards that, sir.
    Mr. Norcross. But as you move forward obviously you are 
preparing for this in our new equipment. How are you dealing 
with it with the legacy equipment that we have?
    General Berger. Retrofitting is probably an idea that only 
the last few years we have started writing it into requirements 
in the way we probably should have all along, but it wasn't so 
necessary; now, it absolutely is. For example, we have Fox--we 
have 117 Golf and Fox radios. Retrofitting them, difficult 
work. Retrofitting a Humvee, hard work. The M1A1 tank, it is 
analog, not digital.
    In some of the legacy systems there is a point we reach 
like with the M1A1 [Abrams tank] where you cannot go any 
farther or the LAV [light armored vehicle]. The ACV [Amphibious 
Combat Vehicle], the combat vehicle that we are starting to 
field, baked into it, built into it. But for the legacy systems 
you mentioned, sir, some will be bolt-on, kind of aftermarket 
work, and some will be in a separate system that does the 
fusion between legacy analog into a digital fifth gen.
    Mr. Norcross. Have you done scrub down of all those systems 
to see, you know, this comes down to what you do is making 
these tough decisions, what risk are you able to take on, how 
much of an investment into our older equipment versus 
accelerating some of our new ideas.
    General Berger. We have, sir, and in the budget that was 
submitted you will see cancellation of some legacy programs 
that were going to upgrade C2 systems, in favor of a more 
modern platform.
    Mr. Norcross. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And General Berger, I wanted to add my congratulations 
along with my colleagues on your new role. I look forward to 
working with you, and have a question for you and Mr. Smith.
    As you know, the Army is rapidly developing the next-
generation capabilities with respect to long range precision 
fires, combat vehicles, future vertical lift programs in the 
fiscal year 2020 budget. I was wondering if--what are you doing 
to develop and invest in these next-generation capabilities and 
how are you coordinating with the Army in these initiatives.
    Mr. Smith. Well, ma'am, let me assure you that we are 
closely tied to the Army. They are much larger for us, and they 
are already working on things. They have a larger budget, and 
the Marine Corps benefits greatly from leveraging and working 
together as a combined force. There is no daylight between us 
when it comes to the capability that we are working to extend 
forward modernization efforts and bringing forth new 
technology.
    We have joint programs and a joint light tactical vehicle 
where we are working great together with one another so that 
synergy continues.
    Mrs. Hartzler. That is great. As far as the Block 4 
modernization with the F-35, you have committed to a 
significant amount of funding to support this initial Block 4 
modernization, but as I said in my opening statement, I think 
there is some concerns with the projections going forward with 
the idea that every 6 months there is going to be this big leap 
as the cost.
    So how can you assure us and the taxpayer that Block 4 
modernization program won't follow in the footsteps of the F-
35's baseline program, which saw significant cost and schedule 
growth during its development?
    Admiral Winter. Thank you, ma'am, and it is a great 
question. So we start with the maturity of hardware and 
software of the Block 3F and the Block 4 takes the warfighting 
capabilities that were identified by our services to address 
the pacing threats through 2025, and we looked at the Block 3 
app to see where the modernization enhancements and 
improvements needed to be made to stay in front of that threat. 
It is not a clean sheet of paper. The airworthiness and the 
outer mold line, the majority of that structure--all the 
structural work that was truly some of the unknowns over the 
Block 3 and the earlier development has all now at a maturity 
level.
    What we see for Block 4 capability is about 80 percent 
software modernization of current fielded software and 20 
percent enabling hardware that will not change the outer mold 
line of the aircraft. It will not drive additional 
airworthiness testing in the same way and the manner and the 
capacity that we had in Block 3.
    Mrs. Hartzler. That makes sense. That makes sense. I have 
heard the bell, so are we voting right now?
    Okay. Just a couple quick other things. As you know, 
Secretary Mattis had the 80 percent mission-capable rate as the 
goal, and I was wondering if you could just kind of give us an 
update on where we are at on the readiness rate of our 
aircraft.
    Admiral Conn. For Super Hornets, ma'am, I will keep this 
brief because I know there is a tight timeline. We have invited 
industry, asked industry to come out and assess our processes 
at our squadrons, at our depots in California, and our 
intermediate activities. We have reduced planned maintenance 
intervals [PMIs] on Super Hornets from 120 to 60 days, and not 
only did we cut it in half, the quality of the product that is 
coming out of that PMI event is that much better, and the 
aircraft is flying within a week from that PMI event, in some 
cases 4 days. We are trying to reduce our 84-day inspections 
down to 3 days. We have looked at treating artisans that do 
these PMI events and repair repairables as surgeons.
    Surgeons don't leave the patient and don't leave the 
operating room in the middle of a procedure. You plan the 
event, you know the resources you require, and you keep the 
artisan focused on that effort. So those are just a few of the 
things.
    What are the results? The MC [mission-capable] rates we see 
as a volatile stock market right now. The highs are getting 
higher, the lows aren't going as low, but the vectors are going 
in the right direction. We have seen anywhere from 63 percent 
MC rates, that is a snapshot in time on a given day, to 76 
percent MC rates, a snapshot in time on a given day, and they 
fluctuate in between. We need to understand what is causing 
that variance, fix what we can to maximize the peaks, minimize 
the valleys, and keep the vector going in the right direction.
    Mrs. Hartzler. Great. Admiral Winter, do you want to give 
the F-35 rate?
    Admiral Winter. Yes, ma'am. Similar to Admiral Conn, we 
have identified the root causes and the levers needed to ensure 
the availability and the mission-capable rates for the F-35. We 
look across our entire fleet and have taken a full system look. 
We need to make sure that we have increased spare parts on the 
flight line. We need to make sure we can repair parts or 
accelerate in the depot standups in the United States, and we 
have pushed flight line maintenance authorities to our 
warfighters on the flight line where they had to send back 
parts or send back to get the maintenance completed. They can 
now do that--those actions on the flight line.
    Those three have and will continue to increase the 
availability and the mission-capable rates of our F-35. What we 
look at right now is a snapshot of our combat coded fleet. We 
have the F-35A is 61 percent, F-35B is 64 percent, and the F-
35C is 84 percent. When we deploy and we provide afloat spares 
packages and deploy packages, those mission-capability rates 
average between 65 and 85 percent as we move forward.
    Mrs. Hartzler. That is great. I am concerned that you said 
that Lockheed Martin they have a 200-part shortage every month, 
so I am glad that you are getting after the parts and focused 
on this.
    I think we will go ahead and stop, but thank you very much.
    Mr. Norcross. Just a quick interjection because I might 
have picked up on it incorrectly. General Rudder, you were 
talking about the sustainment costs, and you alluded to that 
when we came to a set of criteria that you were including in 
that. I am paraphrasing. Are the criteria that you take into 
account to come up with sustainment costs different than other 
service branches or is there continuity across the board?
    General Rudder. Every service computes their costs a bit 
differently, but with the F-35 we have come together with CAPE, 
the JPO, and the Navy, and we are on the same sheet of music as 
far as computing costs. But in the very beginning we were 
including some things, not including other things, but we have 
now in the past year--of course it has been about year now 
since we have come together, and we are all on the same sheet 
of music when it comes to those criterias that we are including 
for the cost.
    Mr. Norcross. We are comparing apples to apples. Mr. 
Golden, do you have any questions?
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I just have a quick 
question for Rear Admiral Conn. As we look at where we are 
today in great power competition the debate back and forth has 
been how do we maintain and in some areas create a larger delta 
between our adversaries and ourself because we want them to 
remain near-peers. But as we look at where we are coming with 
the deliberations back and forth about the remaining 2 years of 
the Budget Control Act of 2011, the potential of sequester is 
there. And you had talked about modernization and how critical 
modernization is not only with current aviation platforms in 
making sure that we get the new F-35 on board and, Admiral 
Winter, I know you have talked about that too.
    So I wanted to get your perspective about where did the 
Navy see themselves if sequester were indeed to come back as 
far as modernization, and where does that leave the United 
States in relation to maintaining and in some instances trying 
to enhance still keeping our adversaries as near-peers.
    Admiral Conn. If we go back to sequestration levels it will 
drive us back to making false choices between readiness and 
modernization, which is in some cases why we are sitting where 
we are today. There is a lot of programs we have both today to 
keep them ready or to modernize them, let alone all the things 
we have to do in the future. Every aircraft in CNATRA must be 
replaced by 2035.
    The E-6B has a pretty important mission. I have to 
recapitalize that. C-130, I mean the list is long. And SLM, 
service-life modernization, for taking a Block 2 into making it 
a Block 3 Super Hornet. You know, we are finally at place where 
we are buying more aircraft, either F-18 Block 3s, F-35Cs, and 
when you add up the SLM efforts and number of aircraft we are 
going pump out we are delivering more aircraft than we are 
burning up each year, which allows us to now get out of some 
old legacy systems, get rid of the F-18Ds, A through D's, give 
the rest to the Marine Corps, drive down costs across the 
force. That would cause some significant challenges, and we 
always have hard choices to make. The choices would get that 
much harder.
    In terms of being able to provide the force that is going 
to fight and win in that high-end environment, that would be at 
risk.
    Mr. Wittman. Very good. Vice Admiral Winter, any thoughts 
on that?
    Admiral Winter. I see the F-35 stays at full sprint in 
development with our modernization, full sprint and production 
to 2044, and full sprint as we go from 395 air systems to 1,200 
air systems just over the next 4 years. Any reduction or 
substantial reduction to funding amounts in development, 
production, or sustainment will have considerable impact and 
will erase all of the initiatives and all of the gains in 
affordability that we have worked so hard to gain and we are on 
the precipice here.
    My biggest concern across the F-35 is truly my supply chain 
management, and any disruption to the supply chain, be it self-
imposed or otherwise, will have a direct impact in the ability 
to produce airplanes and sustain them, and then my warfighter 
is not going to need to modernize them because he is not going 
to buy them.
    Mr. Wittman. Got you. Very good. Lieutenant General Rudder.
    General Rudder. When you all really put in and helped us in 
the budget lane to begin investing our readiness accounts fully 
and while certainly modernizing. And for the Marine Corps we 
are transitioning our complete fleet. So just an example for 
the FRCs [Fleet Readiness Centers], our depots, in the past few 
years the depots have hired back 2,700 artisans and engineers 
and workforce, and we are catching up with our depot. Aircraft 
are coming out, and they are flyable, and they are a great 
product.
    Our spares accounts now we have now fully funded our spares 
accounts. This year for the F-18 alone we will reap the 
benefits of $1.6 billion of spares that we were able to put in 
for those accounts while all at the same time supporting the 
NDS [National Defense Strategy] and buying new airplanes, F-
35s, CH-53K, we are going to finish off our V-22 buy and our 
KC-130 buy here in the next few years.
    So to do that we go back to the competition and balance. 
And we have committed at this table to fully fund our readiness 
accounts, and if we stay committed to that in a sequestration-
like event that means that something is going to give in our 
modernization accounts.
    Today the budget that we have set forward allows us to 
balance. Readiness as well as modernize, and to compete in this 
world I think we are going to need to maintain that for quite 
some years to catch up.
    Thank you, Congressman.
    Mr. Wittman. Lieutenant General Berger, your perspective? I 
know you have a very--much broader perspective outside of the 
aviation realm, but also across all Marine Corps operations.
    General Berger. I would agree with what was already said, 
Congressman. We would triage just like you would any patient. 
You would absolutely make sure that the next units that are 
deploying and the ones that are already deployed have 
everything that they need. You are not going take anything away 
from that. You are going to hurt research and development. You 
are going cut that. We would cut the modernization way down 
because what we can't have is a carrier strike group or an ARG 
MEU [amphibious ready group Marine expeditionary unit] go out 
anything less than 100 percent ready.
    So we would triage the patient, cut off modernization, 
reduce research and development, do whatever we needed to do to 
make sure the units that were on the slate to deploy are ready.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Norcross. Thank you. And if it was up to the Armed 
Services Committee we wouldn't have the problem. It is a matter 
of those who aren't in this room who need to hear it.
    I just want to follow up with one item and line of 
questioning from Mr. Wittman on the CH-35K. General Rudder, for 
the record can you talk about any new contract that you might 
enter into, how it will address the deficiencies and any 
potential ones?
    [The information referred to can be found in the Appendix 
on page 105.]
    General Rudder. We are endeavoring right now to enter into 
a contract that addresses all the deficiencies, as well as any 
new deficiencies as part of the delivery of that aircraft.
    Mr. Norcross. Now that contract might include a set-aside 
for any future unseen issues?
    General Rudder. It could.
    Mr. Nega. Yes, sir, let me jump in. There is an 
expectation, and we are in negotiations right now with 
Lockheed, there is an expectation that on that LRIP [low rate 
initial production] contract that there is a risk sharing that 
goes on there. So for any new discovery that risk will be 
shared by the contractor.
    Mr. Norcross. So it sounds like that Lockheed, who is at 
risk here if they enter into that, understands that by now they 
should have found any major issue?
    Mr. Nega. The flight envelope has been tested to the 
corners. General Rudder talked about how we sort of--we have 
wrung it out. There is a relatively low risk that anything 
major will be found; however, if nuisance issues come along, we 
are not going to give those nuisance issues to the Marines, and 
the Navy and Marine Corps team is not going to accept the full 
risk of that, so the risk concurrency between the development 
and the production there is that overlap is going to be taken 
care of.
    Mr. Norcross. But that is cost risk, we still have the time 
risk?
    Mr. Nega. Correct.
    Mr. Norcross. Thank you. Mrs. Hartzler, any other 
questions?
    Mrs. Hartzler. No.
    Mr. Norcross. Any closing statements?
    We want to thank all the witnesses for working with us 
today, and perfect timing, votes are being called.
    We are adjourned. Thank you.
    [Whereupon, at 10:35 a.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 4, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 4, 2019

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 4, 2019

=======================================================================

      

            RESPONSE TO QUESTIONS SUBMITTED BY MR. NORCROSS

    General Rudder. On 29 Mar 2019, PMA-261 and Sikorsky reached a 
handshake agreement for the combined contract award of CH-53K Lots 2 
and 3. Targeted award is slated for early- to mid-May. Negotiations 
resulted in a favorable position for the Government with several 
contract terms that will reduce both the Government concurrency risks 
of the development and production programs and potential retrofit 
costs. The aircraft quantity was negotiated for 12 vice 14 aircraft due 
to cost growth identified during Lot 1 production as well as the cost 
of known technical deficiencies due to development and production 
concurrency. The lower quantity will allow the program to afford the 
aircraft while preserving planned support efforts within the budget and 
program schedule. Aircraft Contract Line Item Numbers (CLINs) will be 
Fixed Price Incentive, providing a firm target. Negotiated target 
profit is lower than typical, at 10.3% average across multiple CLINS. A 
more favorable overrun share ratio of 40/60 for the Government accounts 
for the recurring risk of 126 known technical issues, and a 30/70 
underrun share incentivizes the Contractor to drive down costs. The 
negotiated ceiling is 121%. A gated process will not be required on 
this contract as risk and incentives will be managed inside the 
contract structure and the agreed-to concurrency clause. The 
concurrency clause includes the correction of 126 deficiencies that are 
required for a deployable configuration. The Contractor will cover 
recurring costs of any configuration changes (beyond 126) discovered 
during developmental efforts and required for the deployable 
configuration, up to $5M per aircraft.   [See page 28.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BANKS
    General Rudder. The F-22 CAPE less Indirect Support CPFH in FY17/18 
was $ $70,035 and $61,993, respectively. These values are placed in 
``then year'' dollars.   [See page 18.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Smith. The Marine Corps adopted the M855A1 Enhanced Performance 
Round (EPR), a 5.56mm munition, for the War Reserve Munitions 
Requirement to align with the Army. The full requirement has been 
procured and deliveries will continue through FY 2021. The M855A1 will 
replace the Mk 318 Mod 0/1 SOST rounds as soon as logistically 
feasible. Both rounds offer increased performance over the legacy M855 
5.56mm Ball round. There is a joint/combined effort to lighten the load 
with ammunition. The Marine Corps led this effort by developing a 
polymer case round for .50 Caliber; the Army is working 7.62mm, and the 
U.K. is working 5.56mm. The .50 Cal has performed well during testing 
and qualification and the next step will be conducting user evaluation 
within our training establishment. Furthermore, the joint team is 
actively working to reduce the weight of small arms packaging. These 
efforts combined will substantially reduce small arms weight enhancing 
logistics and benefit the individual Marine. The Marine Corps is 
actively working with the Army on the development of Next Generation 
Squad Weapon capabilities and plans to begin procurement of the weapons 
and associated 6.8mm ammunition after they are qualified for 
production. The Marine Corps intends to start procurement in FY 2023, 
and will field this weapon primarily to infantry. We will maintain 
5.56mm weapons/ammunition for the rest of the force well into the 
2030's.   [See page 23.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 4, 2019

=======================================================================

      

                   QUESTION SUBMITTED BY MR. COURTNEY

    Mr. Courtney. During the period where carrier air wings will have a 
mix of fourth- and fifth-generation fighter aircraft, how will you 
specifically manage the maintenance, logistics support, and detailing 
of aviation maintenance personnel for two very different airframes 
aboard the relatively small space of an aircraft carrier?
    Admiral Conn. A Carrier Air Wing (CVW) is made up of individual 
squadrons manned with Sailors who are trained, equipped, and qualified 
to implement maintenance and safety programs allowing squadron aircraft 
to conduct assigned missions in support of fleet operations. Each 
squadron deploys aboard the aircraft carrier with requisite spares, 
support equipment, tools, technical publications and training programs. 
This is true whether the squadron is comprised of fourth or fifth 
generation fighter, early warning, or rotary wing aircraft. The U.S. 
Navy has developed the necessary Concept of Operations to specifically 
manage the F-35C maintenance and logistics support for the CVNs and 
integration with the rest of the CVW. New platforms, like the F-35, 
introduce maintenance and logistical challenges during their early 
adoption by the fleet. Fifth generation-unique issues such as Low 
Observable coatings and an increased reliance on electronics, software, 
and connectivity to conduct the mission are being addressed by the 
fleet today. Processes are in place and are being exercised to fold in 
lessons learned from developmental/operational test and initial 
operational deployment to inform how the CVW will most effectively man, 
train, equip, maintain, integrate and sustain the F-35C and future 
fighter aircraft aboard the Navy's aircraft carriers.

                                  [all]
</pre></body></html>
